No. 20-6081

In the Supreme Court of the United States

LENORE ALBERT-SHERIDAN, DBA LAW OFFICES OF LENORE
ALBERT,
Petitioner,
v.
STATE BAR OF CALIFORNIA, ET AL.,
Respondents.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PROOF OF SERVICE

VANESSA L. HOLTON, Esq., State Bar No. 111613
ROBERT G. RETANA, Esq., State Bar No. 148677
SUZANNE C. GRANDT, State Bar No. 304794
OFFICE OF GENERAL COUNSEL
THE STATE BAR OF CALIFORNIA
180 Howard Street
San Francisco, California 94105
Telephone: (415) 538-2388
Facsimile: (415) 538-2321
Suzanne.Grandt@calbar.ca.gov
Counsel for Respondents
State Bar of California, et al.

I, Joan Randolph, hereby certify that on November 19, 2020, a copy of the
BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the
above-entitled case was mailed, first class postage prepaid to:
Lenore Albert
31872 Joshua Drive #22C
Trabuco Canyon CA 92679
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 19, 2020, San Francisco, California.

/s/ Joan Randolph
Joan Randolph, Legal Secretary
THE STATE BAR OF CALIFORNIA
180 Howard Street
San Francisco CA 94105

